  11/ZZ/Ub             IUE UU:-3    FAAL   423 241 3897           UIG                           **   HQU         10oo1




S OEF 1325.8
to-o)Dp                                                                                          m       Ene
United States Government                                                                   Department of Ener


memorandum
               DATE:     November 21, 2005                              Audit Report Number: OAS-L-06-02
     REPLY TO
      ATTN OF:           IG-36 (A0SOR016)

     SUBJECT:            Audit of "Property Transfers at the East Tennessee Technology Park"

                TO:      Gerald Boyd, Manager, Oak Ridge Ollice

                         INTRODUCTION AND OBJECTIVE

                         In 1999, the Oak Ridge Office (Oak Ridge) implemented a personal, property title
                         transfer strategy at the East Tennessee Technology Park (E'TTP) aimed at increasing
                         the effectiveness of property management and disposal methods. Oak Ridge
                         planned to transfer the title of Government personal property to subcontractors in
                         exchange for reduced subcontract costs. It was expected that the transfers would
                         reduce the Department of Energy's (Department) cost to manage Government
                         property and support reindustrialization efforts at the site.

                         Oak Ridge awarded two subcontracts using the property title transfer strategy. In
                         1999, the J.A. Jones Construction Services Company (J.A. Jones) was awarded the
                         maintenance site services subcontract. Also in 1999, American Technologies, Inc.
                         (ATI) was awarded the site's facility management, surveillance, inspection, and
                         testing subcontract. We conducted this review to determine whether the transfers to
                         subcontractors at ETTP were in the Government's best interest.

                         CONCLUSIONS AND OBSERVATIONS

                         Although we determined that Oak Ridge had discontinued the transfer strategy, we
                         identified several areas where the transfers did not adequately protect the
                         Department's interests. Specifically, Oak Ridge did not ensure that adequate
                         consideration was received for the transferred property, nor did it ensure the
                         availability of mission-essential equipment upon subcontract completion. For
                         example:

                             *     Oak Ridge transferred maintenance equipment with an acquisition value of
                                   about $7 million to J.A. Jones to perform maintenance services at ETTP.
                                   We were not able to identify the amount of consideration or specific cost
                                   savings associated with the transfer. Instead, we concluded that J.A. Jones
                                   was paid $10,000 more to take title to the property than if the Department
                                   provided the equipment without transferring title. When J.A. Jones filed
                                   bankruptcy in 2003, the Department bought most of the equipment back as
                                   part of a $1.5 million settlement.
11/22/05   TUE 09:39 FAX 423 241 3897               OIG                           ---   HQ            141002\


                    Oak Ridge transferred facility management, surveillance, inspection, and
                    testing equipment with an acquisition value of about $1.3 million to ATI.
                    Once again, we were not able to identify the amount o 1consideration or
                    specific cost savings associated with the transfer. Instead, we concluded
                    that ATI was paid $574,000 more to take title to the property than if the
                    Department retained title. When ATI completed its subcontract in 2005, the
                    Department was forced to negotiate with another contractor to obtain filter
                    testing services that continued.

            While we recognize that the property transfers could provide potential benefit to the
            Department, Oak Ridge did not implement key controls to ensure the Government's
            interest would be protected when carrying out the property title transfer strategy.
            For example, Oak Ridge did not determine the fair market values of the property or
            conduct an independent cost-benefit analysis before approving the transfer plan. In
            addition, Oak Ridge did not incorporate provisions in the subcontracts to adequately
            protect its interests when either the subcontracts were terminated or when missions
            continued after the subcontracts were completed. An effective pre-transfer analysis
            could have determined property values while evaluating proposed consideration,
            mission-related risks, and monetary impacts.

             Should Oak Ridge resume the property transfer strategy as part of the closure of
             ETTP, we suggest implementing additional controls to protect the substantial
             amount of property remaining at the site. Specifically, Oak Ridge should:

                * Incorporate contract clauses to ensure the availability of mission-essential
                  equipment upon contract completion;

                *   Ensure that property values are determined and adequate consideration is
                    received prior to transfer; and,

                *   Develop methods to effectively evaluate the cost and benefits of property
                    title transfers.

             Without clearly defined controls or procedures in place, future property title
             transfers may not adequately protect the Government's interest.

             SCOPE AND METHODOLOGY

             The audit was performed from January through November 2005, at the
             Department's East Tennessee Technology Park and Oak Ridge Office in Oak Ridge,
             Tennessee. The audit scope was limited to personal property title transfers
             occurring during the award of Bechtel Jacobs Company LLC (Bechtel Jacobs)
              subcontracts from 1999 to 2005. To accomplish the audit, we obtained and
              reviewed documents relating to the transfer strategy, including planning and
             justification documents as well as the Requests for Proposal and awarded
              subcontracts; reviewed findings from prior audit reports; assessed internal controls;
              and, interviewed key Bechtel Jacobs and Department personnel.




                                                      2
11/22/05   TUE 09:40 FAX 423 241 3897              OIG                           -**   HQ           J003




            The audit was performed in accordance with generally accepted Government
            auditing standards for performance audits and included tests of internal controls and
            compliance with laws and regulations to the extent necessary to satisfy the audit
            objective. Accordingly, we evaluated the Department's implementation of the
            Governments Perobrmanceand Results Act and determined that performance
            measures related to property title transfers at ETTP had not been established.
            Because our review was limited, it would not necessarily have disclosed all internal
            control deficiencies that may have existed at the time of our audit. Also, since we
            did not rely upon automated data processing equipment to accomplish our audit
            objective, we did not conduct an assessment of the reliability of computer processed
            data. The Oak Ridge Office waived the exit conference.

             We appreciate the cooperation of your staff during our review. Because no formal
             recommendations are being made in this letter report, a formal response is not
             required.




                                                          Fredrick G. Pieper, Director
                                                          Energy, Science and Environmental
                                                            Audits Division
                                                          Office of Inspector General


              cc:   Team Leader, Audit Liaison Team, CF-1.2
                    Audit Liaison, Office of Environmental Management, EM-33
                    Audit Liaison, Oak Ridge Office, PM-733




                                                      3
11/22/05            TUE 09:37 FAX 423 241 3897                OIG                                                     ]004




DOC
  F 11M.9



United States Government                                                                            Department of Energy


memorandum
            DATE:     November 21,2005
    REPLY TO
    ATTN OF:           IG-36 (A050R016)
     SUBJECT:          Audit Report on "Property Transfers at the East Tennessee Technology Park"
              TO:      Assistant Inspector General for Audit Planning and Administration


                       Attached is the required final letter report package on the subject audit. The pertinent
                       details are:

                              1. Staffdays:.            Programmed        N/A          Actual      N/A
                                  Elapsed days:         Programmed        278          Actual '265


                              2. Names of OIG audit staff:
                                  Assistant Director:        Phil Beckett
                                  Team Leader:               Rick Buchanan
                                  Auditor-in-Charge:         Debbie Solmonson
                                  Audit Staff:               Crystal McKec

                              3. Coordination with Investigations and Inspections:

                                  The letter report was provided to the Office of Investigations and the Office of.
                                  Inspections for comment on September 7, 2005. Follow-up discussions were
                                  held on November 8, 2005. Their responses indicated that the report would
                                  not affect any ongoing investigations or inspections.



                                                                    -rcdrick    Picper, Director
                                                                      Energy, Science and Environmental
                                                                       Audits Division
                                                                      Office of Inspector General

                      Attachments:

                      1.          Letter Report (3)
                      2.          Monetary Impact Report
                      3.          Audit Project Summary Report
                      4.          Audit Database Information Sheet
11/22/05     TUE 09:37 FAX 423 241 3897                          OIG                                                                [2006




                            MONETARY IMPACT OF REPORT NO.: OAS-L-06-02


       1. Title of Audit:        Property Transfers at the East Tennessee Technology Park

      2. Division:               ESE/ORAG

      3. Project No.:            A050R016

      4. Type of Audit:

      Financial:                                             Performance:       X
         Financial Statement                                   Economy and Efficiency                      X
        Financial Related                                      Program Results
      Other (specify type):

      5.

                                                                                                           MG.        PI'TENTIAL.
              FINDING            COST AVOIDANCE                      QURSTIONED COSTS                    POSITION      BUDGET
                                                                                                                       IMPACT
       (A)           (B)         (C)           (0)         ()           (F)      (0)         (H)            (1)           (J)
                    Title        One        Recurring   Questioned     lnsup-    hUnre-      Total       C=Concur       Y=Ycs
                                 Time        Amount                     pored   solved    (tot''t)(G)    N-Nncnn        N-No
                                             PerYcar                                                     U-Undec
              Property            $0           $0           $0           $0      $0            O$          N/A            N
              Transfcrs at the
              East Tennessee
               'TechnoihgyPark
       TOTALS.-ALL $0o                         $0           $0          $0       $0          SO
       FINDINGS_______


      6. Remarks: Our audit disclosed that although Oak Ridge had discontinued the transfer
      strategy, we identified several areas where the transfers did not adequately protect the
      Department's interests. Specifically, Oak Ridge did not ensure that adequate consideration was
      received for the transferred property, nor did it ensure the availability of mission-essential
      equipment upon subcontract completion. These events occurred because Oak Ridge did not have
      specific procedures in place to implement the property title transfer strategy. Should Oak Ridge
      resume the property transfer strategy as part of the closure of ETTP, we suggest implementing
      additional controls to protect the substantial amount of property remaining at the site.


      7. Contractor:                                        10. Approvals:                          -7            _
      8. Contract No.:                                               Division Director/Date                             il2-1/o
      9. Task Order No.:                _Technical                             Advisor/Date
  11/22/05         TUE 09:38 FAX 423 241 3897                               OIG                                                                  o008
                                              Office of the Inspector General (OIG)
                                           Audit Project Office Summary (APS)

                                                                                                                                        Page 1
Report run on:                     November 21, 2005 6:04 PM


  Audit#: A050R016                 Ofc; ORA        Title: PROPERTY MANAGEMENT AT EAST TENNESSEE PARK

                                                                  ****    Milestones ****

                                                   Planned               End of Survey               Revised             Actual


   Entrance Conference:.....                  01-OCT-04                                        10-JAN-05              10-JAN-05
   Survey: ..................                                                                  22-APR-05                2-APR-05
   Draft Report: ...........                                                                   15-AUG-05
   Completed (With Report):.                  30-SEP-05                   22-APR-05            15-OCT-05              21-NOV-05    (R    )
   .----------- Elapsed Days:                           364                       102                      278             315
                                                                                                           SElap. Less Susp:       265
   Date Suspended:                 05-0CT-05                        Date Terminated:
   Date Reactivated:               06-NOV-05                        Date Cancelled:
   DaysSuspended(Cur/Tot)                         0 (         0    ) Report Number:            OAS-L-06-02
   RptTitle:                                                         Report Type:              LTR         LETTER REPORT
   PROPERTY TRANSFERS AT THE EAST TENNESSEE TECHNOLOGY PARK



                                                   ****   Audit Codes and Personnel ****
   Class:          PER      PERFORMANCE
   Function: 004           PROPERTY/INVENTORY
  MgtChall:        009     MANAGEMENT
                                                                                         AD:   327          BECKETT
   Site:           SSA     CONTRACT/GRANT ADMIN
                                                                                        AIC:   741          SOLMONSON
   SecMiss:        ENV      SINGLE-SITE AUDIT
                                                                              Teamn Ldr:       727          BUCHANAN
                                                                              Tea Ld           727          BUCHAAN
               P ENVIRONMENTAL QUALIT
   PresInit: IFP                                                              Tech Adv:        255          ELMORE
                   IMPROVZD-.-BI-NACIAL P
                -.--.                                                                           --.--.--
                                Task N****                        Task Information ***

         Task No:
         Task Order Dt:                                             CO Tech. Rep:
         Orig Auth Hrs:            .Orig                                    Auth Costs:
          Current Auth:                                             Current Auth Cost:
          Tot Actl IPR Ir:                                          Tot Actl Cost:


                                                          .****      Time Charges ****

                       Emp/Cont Name         ..     Nundays .                Last Date
                       HAYES, A                               0.6           12-NOV-05
                       BUCHANAN,      P                    21.3             12-NOV-05
                       MCKEE, C                            89.4             16-SEP-06
                       SOLMONSON, D                       117.9             12-NOV-05
                         Total:                           229.2
  11/22/05       TUE 09:38 FAX 423.241 3897                                 OIG                                              o009

                                                  Office of the Inspector General            (DIG)
                                          Audit Project Office Summary (APS)
                                                                                                                    Page 2
Report run on:                  November 21, 2005 6:04 PM

                                                    '.****   Reywords       ****


                   BECHTEL JACOBS COMPANY LLC
                   PERSONAL'PROPERTY
                   SUBCONTRACTING
                   TITLE TRANSFER



     o                                **** Location Information ****
            ode Description              .'...'          _         ......
                                                              ........

    KOR        EAST TENNESSEE TECHNOLOGI

    ORO        OAK RIDGE OFFICE           (OLD OAK

                                                  ****Finding Infortion ****          Bud .Mt Dept         Dept       Det
   Pindg#               Title     ....                            TypeAmount.      Yrs Imp   Pos     Poe   Amount     Date
  11/22/05    TUE 09:38 FAX 423 241 3897             DIG                            I010

                                  Office of the Inspector General      (OIG)
                                Audit Project Office Summary (APS)

                                                                               Page 3
Report run on:            November 21, 2005 6:04 PM


                                             Audit History..

  Audit No:   A050R016                     History Date:   21-NOV-05
  History Text:
  PB/   ENTERED   COMPLETED WITH REPORT DATE.




                                  ......
                                ...  ..
11/22/05   TUE 09:38 FAX 423 241 3897               OIG                                                    I1007




                         AUDIT DATABASE INFORMATION SHEET


      1.     Project No.: A050R016

      2.     Title of Audit: "Property Transfers at the East Tennessee Technology Park"

      3.     Report No.fDate: M•J•L-- D             ///2//P_

      4.     Management Challenge Area: Contract Administration

      5.     Presidential Mgmt Initiative: Improved Financial Management

      6.      Secretary Priority/Initiative: Environmental Programs

      7.     Program Code: EM

      8.     Location/Sites: East Tennessee Technology Park and Oak Ridge Office, Oak
             Ridge, TN.

             Finding Summary: Our audit disclosed that although Oak Ridge had discontinued the
             transfer strategy, we identified several areas where the transfers did not adequately
             protect the Department's interests. Specifically, Oak Ridge did not ensure that adequate
             consideration was received for the transferred property, nor did it ensure the availability
             of mission-essential equipment upon subcontract completion. These events occurred
             because Oak Ridge did not have specific procedures in place to implement the property
             title transfer strategy. Should Oak Ridge resume the property transfer strategy as part of
             the closure of ETTP, we suggest implementing additional controls to protect the
             substantial amount of property remaining at the site.

      9.      Keywords:
              Personal property
              Bechtel Jacobs Company, LLC
              Subcontracting
              Title transfer
